J

APPENDIX

\

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT
JUN 02 2021
MOLLY €. DWYER* CLERK
U S. COURT OF APPEALS

CARRIE RAE ELDRIDGE,
Petitioner - Appellant,
v.
COMMISSIONER OF INTERNAL
REVENUE,

No. 20-70221
Tax Ct, No. 14744-18
United. States Tax Court
MANDATE

Respondent - Appellee,

The judgment of this Court, entered January 29, 2021, takes effect this date.
This constitutes the formal mandate of this Court issued pursuant to Rule
4 .1 (a) of the Federal Rules of Appellate Procedure,
FOR THE COURT:
MOLLY C, DWYER
CLERK OF COURT
By: Rhonda Roberts
Deputy Clerk
Ninth Circuit Rule 27-7

A-i

j

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

MAY 25 2021
MOLLY C. DWYER, CLERK
U S. COURT OF APPEALS

CARRIE RAE ELDR1DGE,
Peti ti oner- Appe 11 ant.

No. 20-70221
TaxCt. No. 14744-18

v.

ORDER
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appel 1 ee.
Before;

McKJbOWN, CALLAHAN, and BR.ESS, Circuit Judges.

The panel has voted to deny the petition for panel rehearing.
The full court has been advised of the petition for rehearing en bane and no
judge has requested a vote on whether to rehear the matter en banc. See Fed, R
App. P. 35,
EldridgeN petition for panel rehearing and petition for rehearing en banc
(Docket Entry No. 31) are denied.
No further filings will be entertained in this closed case,

A-ii

NOT FOR PUBLICATION

FILED

UNITED STATES COURT OF APPEALS

JAN 29 2021

FOR THE NINTH CIRCUIT
CARRIE RAE ELDRIDGE,
Petitioner-Appellant,

MOLLY C. DWYER. CLERK
U.S. COURT OF APPEALS

No. 20-70221
Tax Ct. No. 14744-18

v.
MEMORANDUM'*
COMMISSIONER OF INTERNAL
REVENUE,
Respondent-Appellee.
Appeal from a Decision of the
United States Tax Court
Submitted January 20, 202 T*
Before:

McKEOWN, CALLAHAN, and BRESS, Circuit Judges.

Carrie Rae Eldridge appeals pro se from the Tax Court’s decision, after a
bench trial, upholding the Com missioner of I nternal Revenue Service’s
determination of a deficiency for tax year 2015, and imposing a penalty under 26
U.S.C. § 6673. We have jurisdiction under 26 U.S.C. § 7482(a). We review de

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
# JT

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

A-iii

novo the Tax Court’s legal conclusions and for clear error its factual findings.
Hardy v. Comm r. 181 F.3d 1002, 1004 (9th Cir. 1999). We affirm.
The Tax Court: properly upheld the Commissioner5s deficiency
determination for 2015 because the Commissioner presented “some substantive
evidence” that Eldridge failed to report income, and Eldridge failed “to show by a
preponderance of the evidence that the deficiency was arbitrary or erroneous.” Id.
The Tax Court did not abuse its discretion by imposing against Eldridge a
$3000 penalty under 26 U.S.C. § 6673 for maintaining frivolous positions despite
the Tax Court’s warnings. See Wolf v. Comm 'r, 4 F,3d 709, 716 (9th Cir. 1993)
(setting forth standard of review and concluding that the Tax Court was within its
discretion in imposing penalties under § 6673 against taxpayer who persisted in
litigating frivolous positions following warning).
The Commissioner’s motion for sanctions (Docket Entry No. 14) is denied,
but the Commissioner may seek sanctions in a subsequent case if Eldridge
continues to advance frivolous arguments. Eldridge’s motion to take judicial
notice (Docket Entry No. 21) and motion to strike (Docket Entry No. 24) are
denied.
AFFIRMED.

2

20-70221

A-iv

17

1

CLC

J

UNITED STATES TAX COURT
WASHINGTON, DC 20217

CARRIE RAE ELDRIDGE,

)
)

Petitioners),

)
)

v.

) Docket No. 14744-18.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)

ORDER

Pursuant to Rule 152(b), Tax Court Rules of Practice and Procedure, it is
ORDERED that the Clerk of the Court shall transmit to peti tioner and to
respondent a copy of the pages of the transcript of the proceedings of the above
case before Judge L. Paige Marvel at San Diego, California, on November 6, 2019
containing the Court’s oral findings of fact and opinion.
In accordance with the oral findings of fact and opinion, an appropriate
decision will be entered.

(Signed) L. Paige Marvel
Judge

Dated: Washington, D.C.
December 19, 2019

SERVED Dec 20 2019

A-v

18
CLC
w'

UNITED STATES TAX COURT
WASHINGTON, DC 20217

CARRIE RAE ELDRIDGE,

)
)

Petitioners),

)
)

v.

) Docket No. 14744-18.
)

COMMISSIONER OF INTERNAL REVENUE, )
)

Respondent

)
)

DECISION
Pursuant to the determination of the Court, as set forth in the Court’s Oral
Findings of Fact and Opinion, rendered on November 6, 2019, in San Diego,
California, it is
ORDERED AND DECIDED that there is a deficiency in Federal income tax
due from petitioner for the taxable year 2015 in the amount of $4,630. It is further
ORDERED AND DECIDED that petitioner shall pay a penalty to the United
States under I.R.C. sec. 6673(a)(1) in the amount of $3,000.
(Signed) L. Paige Marvel
Judge

ENTERED:

DEC 20 2019

SERVED Dec 20 2019

A-vi

